U.S. Department of the Interior
Office of Inspector General




            AUDIT REPORT


    U.S. FISH AND WILDLIFE SERVICE
        FEDERAL AID GRANTS TO
       THE STATE OF COLORADO
   FOR FISCAL YEARS 1994 AND 1995

              REPORT NO. 98-E-198
                JANUARY 1998
             United States Department of the Interior
                            OFFICE OF INSPECTOR GENERAL
                                    Washington, D.C. 20240

                                                                        C-GR-FWS-030-96




                                 AUDIT REPORT
Memorandum

To   l

     .   Regional Director, Region 6,
          U.S. Fish and Wildlife Service
                                __*- -3
From:    Robert J. Williams L-       ;-.A Cc / ,~.&~LC”-c,-‘M
                              ri
         Assistant Inspector General for Audits

Subject: Audit Report on U.S. Fish and Wildlife Service Federal Aid Grants to the State of
         Colorado for Fiscal Years 1994 and 1995 (No* 98-E-198)

                                INTRODUCTION
This report presents the results of our audit of U.S. Fish and Wildlife Service Federal aid
grants to the State of Colorado for fiscal years 1994 and 1995. The objective of our audit,
which was requested by the Service, was to determine whether: (1) costs claimed by the
State’s Division of Wildlife, Department of Natural Resources, were eligible for
reimbursement; (2) fishing and hunting license revenues were used for the administration of
the State’s fish and wildlife agency; and (3) the Division met the minimum annual
requirements for spending State funds on sport fish activities.

BACKGROUND

The Service awards grants to states for the enhancement of state sport fish and wildlife
resources under the authority of the Federal Aid in Sport Fish Restoration Act (16 U.S.C.
777) and the Federal Aid in Wildlife Restoration Act (16 U.S.C. 669). To be eligible for
these grants, states must agree to comply with all of the provisions of the Restoration Acts.
One of these provisions requires the states to enact legislation that includes a prohibition
against the use of revenues from the sale of fishing and hunting licenses for any purpose
other than the administration of the states’ fish and game department. Also, the 1984
Wallop-Breaux amendment to the Sport Fish Restoration Act requires the Division of
Wildlife, which administers the Service’s grants, to spend annually State funds of at least
$6,364.73/ 1 (which could include state fishing and hunting license revenues) on sport fish
activities.
 The grant agreements with the State of Colorado provided that the Division would be
 reimbursed for up to 75 percent of the eligible costs incurred on approved Federal aid
 projects. In fiscal years 1994 and 1995, the Division recorded fish and wildlife program
 expenses of about $60 million and $63 million. respectively. Also, the Division received
 grant reimbursements from the Service of about $10.3 million in fiscal year 1994 and
 $7.5 million in fiscal year 1995.

 The Grants and Contracts Section of the State’s Department of Natural Resources provides
 accounting services for the Division. Fishing and hunting license revenues, reimbursements
 under the Federal aid grants, other associated revenues, and all Division expenditures are
 maintained and accounted for in separate funds.

 SCOPE OF AUDIT

  To accomplish our objective, we evaluated the adequacy and reliability of the Division’s
  processes for collecting and disbursing license fees, the adequacy of the Department’s
  accounting system to determine whether the system can be relied upon to accurately
J accumulate and report actual costs charged to the grants, and the accuracy and the eligibility
  of the costs claimed under the grants. On a test basis, we examined evidence supporting the
  amounts of salary costs charged to the grants for a l-year period and interviewed employees
  and their supervisors to ensure that all personnel costs charged to the grants were
  supportable. We also reviewed other selected costs claimed by the Division for fiscal years
  1994 and 1995 (July 1, 1993, through June 30, 1995) under the Restoration Acts’ grants from
  the Service. When questioned costs were identified, we determined whether similar costs
  were claimed for the entire period of fiscal years 1991 through 1996, as requested by the
  Service. We also reviewed the Division’s use of fishing and hunting license revenues to
  determine whether the revenues had been used for program purposes and reviewed the
  Divisions expenditures to determine whether the State spent at least $6,364,731 annually
  (the Wallop-Breaux amendment funding requirement) on sport fish activities. At the request
  of the Service, we reviewed certain types of leases to determine whether the properties were
  used for purposes that are consistent with the State’s fish and wildlife program.

 We did not review the internal controls over the accounting system of the Grants and
 Contracts Section, Department of Natural Resources, because such reviews are conducted
 under the single audit provisions of Office of Management and Budget Circular A-128,
 “Audits of State and Local Governments.” A single audit report issued on November 15,
 1995, identified some reportable conditions but concluded that none of those conditions
 constituted a material weakness. During our audit, we evaluated the adequacy of internal
 controls over the Division’s operations and found that the Division needed to implement
 additional controls over leases and income earned on leases of Division real property
 purchased with license revenues. Our recommendations, if implemented, should improve
 the internal controls in this area.

 Our audit was performed in accordance with the “Government Auditing Standards,” issued
 by the Comptroller General of the United States. Accordingly, we included such tests of
 records and other auditing procedures that were considered necessary under the

                                                2
ciri;umstances. We did not evaluate the economy, efficiency, and effectiveness of the
Division’s operations. Our audit was performed at the Colorado Division of Wildlife
headquarters in Denver, Colorado, and wildlife area offices in Denver, Grand Junction,
Montrose, Colorado Springs, Buena Vista, Fountain, and Pueblo, Colorado. We also
contacted Division personnel in Loveland, Lamar, and Salida, Colorado, and Division of
Parks and Outdoor Recreation personnel in Golden and Denver, Colorado, to obtain
information regarding real property leased from the Division.

PRIOR AUDIT COVERAGE

During the past 5 years, neither the Office of Inspector General nor the General Accounting
Office has issued any reports on the State of Colorado’s fish and wildlife program activities.

                              RESULTS OF AUDIT
In regard to the Wallop-Breaux amendment to the Sport Fish Restoration Act, we found that
the State of Colorado had met its financial contribution requirement. However, we
questioned costs of $4,842 claimed by the State’s Division of Wildlife for fiscal year 1995
under a U.S. Fish and Wildlife Service Federal aid grant. We also found that, despite
requirements in the Restoration Acts that State hunting and fishing license revenues and any
income earned on those revenues should be used solely for fish and wildlife programs, the
Division did not maintain control and oversight of real property purchased with license
revenues to ensure that: (1) these properties were used for program purposes and (2) income
of at least $1.2 million from entrance fees and other charges for the use of these lands were
used for fish and wildlife program purposes. Furthermore, the State tinded activities that
we believe may not have met the requirements or intent of the Restoration Acts.
Specifically, the State spent license revenues on measures to prevent damage from predatory
animals, to reimburse landowners for damage caused by those animals, and to control weeds
on properties leased or owned by the Division.

Questioned Costs

We questioned costs of $4,842 (of which $3,632 was the Federal share) that were charged
to the Federal Aid Coordination project for a temporary hire. Payments to an employment
agency for the services of the temporary employee were documented; however, the work
performed and the duties and responsibilities of the employee were not documented.
Because the grant that financed the temporary employee provided for one Federal aid
coordinator and no documentation was prepared to show that additional staff assistance (the
temporary hire) was needed, we questioned the need for and the expense of the temporary
employee.

License Revenues

The Restoration Acts require states that receive Federal aid grants to pass laws which
incorporate provisions of the Acts, including “a prohibition against the diversion of license


                                              3
fees . . . for any purpose except the administration of said State fish and game department.”
(Emphasis added.) The Code of Federal Regulations (50 CFR 80.3) states that passage of
such “assent legislation” is required for a state to receive Federal aid grants, and Part 80.4(b)
of the Code defines the administration of a state’s fish and game agency as “only those
functions required to manage the fish and wildlife-oriented resources of the State for which
the agency has authority under State law.”

Although the State enacted legislation in 1939 and 1951 that included provisions required
by the Acts concerning the use of license revenues, the Division did not ensure that license
revenues were used solely for administration of the State’s fish and game department.
Specifically, we found that real property acquired with license revenues was not managed
or operated by the Division to ensure proper use; revenues which were earned on these
properties were not remitted to the Division as required by the Code of Federal Regulations;
and certain activities such as animal damage control, which may be inconsistent with fish and
wildlife program purposes, were financed with license revenues.

    Leased Property. The Division did not ensure that real property acquired with license
revenues and leased to other State agencies or to a private organization was used to meet the
Restoration Acts’ objective of enhancing fish and wildlife resources. Since 1972, the
Division has leased to other parties properties that were acquired with license revenues and
that were bought for fishing and hunting uses and for fish and wildlife habitat. While most

impact fish and wildlife activities, some of the leases provided for uses of the property that
may have been inconsistent with the objectives of the Restoration Acts. Based on the
Service’s concern about the use of certain properties, we selected 14 leases for review. Of
these 14 leases, we found that the Division did not maintain adequate control or oversight
to ensure that 10 leased properties (9 of which were leased to the State’s Division of Parks
and Outdoor Recreation and 1 of which was leased to a nonprofit organization) were used
in accordance with program objectives and that the 4 other leases provided for property use
that was compatible with the State’s fish and wildlife program.

The Division issued nine, 25.year no-cost leases (seven in 1972 and two in subsequent years)
to the State’s Division of Parks and Outdoor Recreation. (Before 1972, the Division and
Parks and Outdoor Recreation were one entity.) Although the leases stated that the
properties were to be governed by management plans prepared by the Division and approved
bv Parks and Outdoor Recreation, the Division could not document that the plans had been
prepared or that the Division was’formally monitoring the use of these lands. As such, there
was no assurance that the properties were used in accordance with the objectives of the
Restoration Acts.

We found that for most of the nine leases, Parks and Outdoor Recreation was operating the
lands as parks and collecting entrance fees from anglers and hunters and use fees from
campers and picnickers (see Appendix 2). Parks and Outdoor Recreation had made several



                         camp lete listing of all current leases.
modifications to enhance the recreational use of these areas, including construction of
campgrounds and related facilities, visitor and interpretive centers, hiking trails, picnic areas,
maintenance shops, housing for temporary employees, and an amphitheater. However, we
found no documentation that Division personnel had reviewed and approved these
modifications or had ensured that the properties were maintained and operated in a manner
that was consistent with the objectives of the Restoration Acts. For example:

    - Parks and Outdoor Recreation had banned hunting on one parcel that was leased from
the Division. In a December 1, 1989, letter to Parks and Outdoor Recreation, the Division
expressed “extreme disappointment” that this action had been taken and noted “the apparent
absence of both public input and input from the Division of Wildlife prior to the decision [to
ban hunting].” Nonetheless, Parks and Outdoor Recreation maintained the ban on hunting.

    - A parcel of land that was leased by the Division to Parks and Outdoor Recreation was
used for year-round camping, hiking, and horseback riding, and a visitor and interpretive
center was built on the land. A Division biologist said that such use of the land, in her
opinion, adversely affected wildlife habitat.

    - The Division and Parks and Outdoor Recreation each owned an undivided half interest
in 937 acres of property in the Rifle Gap State Recreational Area, near Rifle, Colorado. The
property was purchased with license revenues and Parks and Outdoor Recreation funds. In
1972, the Division leased its interest in the property to Parks and Outdoor Recreation for a
25year period. In 1986, Parks and Outdoor Recreation deeded 24 acres of this property to
the State’s Department of Corrections to build the Rifle Correctional Center, a purpose that,
in our opinion, was clearly unrelated to the management of the fish- and wildlife-oriented
resources of the State. At the time of our review, , the Division and Parks and Outdoor
Recreation were in the process of dividing the land, with Parks and Outdoor Recreation
receiving the portion occupied by the prison. We believe that the Service needs to ensure
that conversion of a portion of the land to prison use does not adversely affect the remaining
land’s usefulness as a wildlife resource.

We also found one instance in which the Division leased land to an organization that, in our
opinion, used the property for purposes which were not in accordance with the Restoration
Acts’ objectives. Specifically, on August 16, 1978, the Division leased land purchased with
license revenues to a private nonprofit organization for a rental fee of $1 per year for a 2%
year period. The property was used for camping, volleyball, horseshoes, picnicking, fishing,
wedding ceremonies, and family reunions. According to a Division manager, the riparian
areas were adversely affected by camping activities. The area was fenced, even though it was
surrounded by other Division property.

To ensure that properties purchased with license revenues are used for fish and wildlife
purposes, the Service should require the Division to provide adequate control and oversight
of leased properties. Furthermore, the Service should review the current uses of these
properties and determine whether the uses are consistent with the Division’s fish and wildlife
program objectives. If the Service determines that such uses are not in accordance with
program objectives and that the properties acquired with license revenues have been diverted

                                                5
to unauthorized uses,/ it should require the State to comply with the applicable provision of
the Code of Federal Regulations (50 CFR 80.4 (d)(2)). This provision states that the property
should be restored to uses consistent with the State’s fish and wildlife program or “an amount
equal to license revenues diverted or current market value” should be returned and made
“available for use of the State fish and wildlife agency.”

     Income From Land Purchased With License Revenues. The Code of Federal
Regulations (50 CFR 80.4) requires that income earned on license revenues be used by a
state solely for its fish and wildlife program. Parks and Outdoor Recreation, however, earned
income (entrance and use fees) on properties purchased with license revenues but did not
remit this income to the Division as required. We identified seven leased properties on
which Parks and Outdoor Recreation charged visitors an entrance fee of $3 and other use fees
and one property on which the lessee (a private nonprofit organization) levied various
charges for the use of the property. At six of the seven properties leased to Parks and
Outdoor Recreation, entrance fees of $1.2 million and revenues of $250,000 from the sale
of annual passes (which permit entrance to all parks in the State) were collected from fiscal
years 1994 through 1996 (see Appendix 2). The State provided no information on the
amounts collected at the seventh park or at any of the parks during the period before 1994.
We believe that the Service should ensure that entrance fees and other revenues generated
on Division properties which are leased to other parties are remitted to the Division and are


     Control of and Reimbursement for Damage Caused by Predatory Animals. Section
33-3-107 of the Colorado Revised Statutes requires the Division to pay for damage caused
by predator-v animals. (The section was enacted in 1931, before enactment of the Restoration
Acts. j In addition, Section 33-3-l 03 of the Colorado Revised Statutes provides for the
payment for materials to prevent damage caused by “big game animals.” Accordingly, from
fiscal years 1991 through 1996, license revenues from the Division totaling $3,247,846 (see
Appendix 3) were used for compensating landowners for damage caused by predatory
animals and for paying for damage control materials and other damage control activities as
follows:

    - License revenues of $2,536,419 were used for payments to ranchers and farmers for
damage caused by bears, lions, elk, and deer to livestock, crops, and personal property and
for damage control materials such as fencing to prevent wildlife from destroying or damagi w
farm animals and crops.

   - The Division paid Colorado State University $352,227 for research and pub
education on wildlife damage control and for teaching a college course on the subject.




Parks and Outdoor Recreation funds. As such, only a proportional share of the entrance fees at this park
should be remitted to the Division. Also, because annual passes provide entrance to all State parks, only a
proportional share of the annual pass revenues of $250,000 should be remitted to the Division.

                                                    6
     - The Division paid $199,600 to the U.S. Department of Agriculture to help control
 damage caused by wild animals, especially bears and mountain lions, “injurious to
 agriculture, animal husbandry and public health and safety” and also financed the
 capture/killing of the offending animals In that regard, we noted that Agriculture
 periodically sold the bear and lion hides and gave the proceeds ($2,200 in fiscal years 1995
 and 1996) to the State’s Department of Agriculture, even though the Division funded this
 activity and therefore should have received the proceeds.

     - The Division paid the State’s Department of Agriculture $159,600 to establish a
 program to address the needs oflandowners and land mangers who were having problems
 with rodents, predators, or other wildlife.

   On April 12, 1996, the State enacted legislation that, according to the Governor of Colorado,
   clarified “the authority the Wildlife Commission and the Department of Agriculture have
   concerning the control of animals that prey on or damage livestock and agricultural products
   [depredating animals]. ” The legislation gave Agriculture exclusive jurisdiction over the
   control of these animals, except those animals that are “at risk.“3 The Division was assigned
1 a consultative role in establishing rules and methods of controlling depredating animals and
  exclusive authority over the designation of “at risk” species. The legislation also provided
   for the Division to provide assistance, including financial support, at its discretion to carry
  out provisions of the law.

 We believe that the State program to control and provide reimbursement for damage caused
 by depredating animals, when financed by the Division with license revenues, could
 constitute an unauthorized use of these funds. Such a program would likely be conducted
 under rules and regulations promulgated by Agriculture and therefore might serve
 agricultural rather than fish and wildlife program interests.

 In July 1996, a Service official reviewed the legislation and wrote to the Division that “the
 language in the State statutes and its consistency with Federal Aid rules and regulations
 regarding diversion may require a legal interpretation.” We believe that the Service should
 request the Solicitor to issue an opinion as to whether the State’s law is in accordance with
 provisions of the Restoration Acts. Specifically, the Solicitor should be requested to
 determine whether the State’s use of license revenues to pay for the control and
 reimbursement of damage from depredating or predatory animals and related activities is an
 appropriate use of the license revenues.

     Weed Control. On June 3, 1996, the State enacted House Bill 96-1014, which required
 the Division to pay for weed control on properties leased or owned by the Division. Because
 State agencies other than the Division will be involved in determining weed control
 requirements, the Division may be required to pay for weed control that does not benefit fish
 and wildlife program objectives. To preclude the use of license revenues for inappropriate
 purposes, we believe that the Service should request a formal opinion from the Solicitor on


 3”At risk” means any depredating animal species that has been designated as endangered or threatened by
 the Colorado Wildlife Commission.

                                                    7
wh;t-her the use of license revenues for weed control activities benefits the State’s fish and
wildlife program as required by the Restoration Acts.

Administrative Controls

We found that the Division did not have adequate administrative controls to ensure that
income earned on the disposal of excess property was remitted to the Division and that
payroll records for the Federal Aid Coordinator were processed in a timely manner.

     Excess Property. In fiscal years I994 and 1995, the Division transferred 351 items of
excess personal property to the State’s surplus property agency, which sold or disposed of
the property without remitting the proceeds to the Division. This property consisted of items
such as typewriters, mobile radios, computers, desks, and chairs. The Code of Federal
Regulations (50 CFR 80.4) requires that income earned on grant funds or license revenues
(in this instance, the sale of excess property) be used by the state solely for fish and wildlife
program purposes. The State, however, did not maintain records on the proceeds from the
sale of excess Division property. As such, we could not determine the amount of income,
if any, from the sale of excess property that should have been remitted to the Division.

    Payroll Expenses. Although we did not question the salary amount recorded for the
Division’s Federal Aid Coordinator, we found that the Coordinator’s time and attendance
records had not been processed properly. Division procedures require that time sheets be
submitted by the third working day after the month’s end. The Coordinator, however, made
one submission of time sheets for all work performed from July 1994 through April 1995.
As such, we believe that the Service should require the Division to strengthen its controls to
ensure that time sheets are submitted in a timely manner.

Recommendations

We recommend that the Regional Director, Region 6, U.S. Fish and Wildlife Service:

     1. Initiate action to resolve the unsupported questioned costs of $4,842 (Federal share
$3,632). Specifically, the Service should determine whether a need existed for additional
staff to coordinate Federal aid projects during the period in which the questioned costs were
incurred for the temporary hire.

    2. Require the Division of Wildlife to provide adequate control and oversight of its
leased properties.

    3. Determine whether current uses of the leased properties serve fish and wildlife
program purposes and, if a determination is made that the uses do not serve fish and wildlife
program purposes, require the Division of Wildlife to comply with the Federal regulation
governing diversions of program assets (50 CFR 80.4 (d)(2)).

   4. Determine the amount of entrance or use fees that was collected during fiscal years
1991 through 1996 at license revenue-funded properties leased to other State and private

                                                8
organizations and ensure that these revenues and al future entrance and use fees attributable
to the Division’s proportional interest in the proper ies are remitted to the Division and used
for fish and wildlife program purposes.

      5. Request opinions from the Office of the So icitor on the propriety of the State’s use
  Pi’                I- 1      . t P 1 . 1
of license revenues for the control ot and reimbursement for damage caused by predatory or
depredating animals and for related activities and on the propriety of the State’s use of
license revenues for weed control.

    6. Require the State to reimburse the Division of Wildlife for the proceeds from the sale
of bear and lion hides ($2,200) that were given to the State’s Department of Agriculture.

    7. Require the State to account for future income from the sale of the Division of
Wildlife’s surplus property and to remit such income to the Division. Also, the State
agencies should be required to determine the value of surplus property transferred to other
State agencies and to compensate the Division of Wildlife for such property transfers.

   8. Require the Division of Wildlife to ensure that the Federal Aid Coordinator’s time
sheets are prepared and submitted in a timely manner.

U.S. Fish and Wildlife Service Response and Office of Inspector General
Reply
In the October 17, 1997, response to the draft report (Appendix 4) from the Regional
Director. U.S. Fish and Wildlife Service, Region 6, the Service generally concurred with the
report’s eight recommendations and provided, as attachments, additional information from
the Division of Wildlife. After reviewing the additional information provided with the
response, we revised the applicable portions of the finding and Recommendations 1,3, and
7. Based on the response, we consider Recommendation 8 resolved and implemented;
Recommendations 2, 3, and 4 resolved but not implemented; and Recommendations 1, 5,
6, and 7 unresolved. Accordingly, the unimplemented recommendations will be referred to
the Assistant Secretary for Policy, Management and Budget for tracking of implementation,
and the Service is requested to reconsider its response to the unresolved recommendations
(see Appendix 5).

Recommendation 1. Concurrence stated.

    U.S. Fish and Wildlife Service Response. In our draft report, we recommended that the
Service initiate action to resolve questioned costs of $112,12 1, which consisted of indirect
costs of $108,389, an airfare cost of $134? and the costs for a temporary hire of $4,842. In
its response, the Service requested that we review additional supporting documentation that
was provided by the Colorado Division of Wildlife.

   Office of Inspector General Reply. Based on our review of the additional supporting
documentation, we concluded that the indirect costs were a proper charge to the Federal
grants and determined that the airfare cost was later reversed in the accounting records.

                                              9
Accordinglv,/ we deleted the portion of the finding related to these costs and revised the
recommendation. In addition we clarified the portion of the finding pertaining to the need
for a temporary hire for the Federal Aid Coordination grant. Therefore, the Service is
requested to determine whether the temporary employee was needed to assist in the
coordination of Federal grants and to respond to the revised recommendation.

Recommendation 3. Concurrence indicated.

    U.S. Fish and Wildlife Service Response. The Service said that the recommendation
“as written appears to be inconsistent with the regulations” and requested that the
recommendation be revised. In the draft report, we recommended that the Service direct the
State to terminate leases that did not serve State wildlife program purposes and reinstate the
properties as wildlife areas or obtain equitable compensation for properties diverted to
nonwildlife purposes.

    Office of Inspector General Reply. Based on the response, we revised the report and
the recommendation to cite the specific provision (50 CFR 80.4 (d)(2)) of the Code of
Federal Regulations that relates to the diversion of license revenues.

Recommendation 5. Concurrence stated.

   U.S. Fish and Wildlife Service Response. The Service said that on September 23? 1997,
it obtained a Solicitor’s opinion on the propriety of the State’s use of license revenues for the
control of and reimbursement for damage caused bv      d predatory and depredating animals. In
the opinion, the Solicitor said that “as long as payments for wildlife damage are consistent
with the administration of the DOW [Division of Wildlife],” use of license revenues would
be authorized. The Solicitor added that if the Division’s activities were “controlled” or
“thwarted” by another party (“in this example by the State Department of Agriculture”), the
Division “should not pay damages with license revenues.” In an informal opinion issued on
October 7, 1997, which was referenced in the response,i the Service’s Regional Solicitor
wrote that license revenues can only be used “to control predators for legitimate wildlife
purposes” and that “using license revenues to control predators to protect agriculture and
livestock interests constitutes a violation of regulations.” Based on these opinions, the
Service concluded that “this issue requires further review” and stated that it would refer this
matter to a national committee that was “formed to review and recommend changes to
Federal Aid regulations and policies concerning animal damage management issues.” The
Service also stated that the Solicitor’s informal opinion found that the use of license revenues
for weed control purposes was “proper for the State.”

     Office of Inspector General Reply. Since this recommendation will have national
implications when implemented, we agree with the Service’s plan to refer the matter
pertaining to the use of license revenues for predator control and damage reimbursement to
a national committee for further review. In addition, although the Service obtained an
informal opinion from the Solicitor on the use of license revenues for weed control purposes,
it did not obtain a formal opinion, which we consider necessary for the Service’s policy-


                                               10
making decision on this matter. As such, the Service is requested to respond by identifying
further actions it plans to take to fully resolve the recommendation.

Recommendation 6. Concurrence stated.

    U.S. Fish and Wildlife Service Response. The Service said that “final resolution of this
recommendation will be tied to the resolution of Recommendation #5.”

    Office of Inspector General Reply. The Service did not specifically agree to request
reimbursement from the State for the proceeds from the sale of bear and lion hides.
Therefore, we consider the recommendation unresolved, and the Service is requested to
reconsider its response to the recommendation.

Recommendation 7. Concurrence indicated.

    U.S. Fish and Wildlife Service Response. In its response, the Service included
documentation provided by the Division of Wildlife on the disposition of the Divisions
surplus property, which it asked us to review. According to the documentation, the State
sells surplus property in commingled lots with individual items “not tracked separately.”
Further, Division documentation stated that surplus property may be transferred to other
State agencies, abandoned, or destroyed and that State law “requires the transfer of these
items [surplus property] to the State Surplus Property Agency.”

    Office of Inspector General Reply. We revised the recommendation to address the
additional issue of property transferred to other State agencies, as discussed in documentation
submitted by the Division of Wildlife with the Service’s response. The documentation
showed that the State does not have procedures for tracking the disposition (sale, transfer to
another State agency, or disposal/abandonment) of surplus property that had been purchased
with Federal grant fL.nds or license revenues or for recording the proceeds from the sales or
the value of transferred property. We believe that the Service should ensure that the State
establishes such procedures and compensates the Division for this property in the future in
accordance with the Service’s policies and applicable Federal regulations. Accordingly, we
consider the recommendation unresolved, and the Service is requested to reconsider its
response to the revised recommendation.

In accordance with the Departmental Manual (360 DM 5.3), please provide us with your
written comments to this report by February 17,I 1998. The response should provide the
information requested in Appendix 5.

The legislation, as amended, creating the Office of the Office of Inspector General requires
semiannual reporting to the Congress on all audit reports issued, the monetary impact of
audit findings (Appendix l), actions taken to implement recommendations, and identification
of each significant recommendation on which corrective action has not been taken.

We appreciate the assistance of Fish and Wildlife Service personnel in the conduct of our
audit.

                                              11
                                                                                           APPENDIX 1

                CLASSIFICATION OF MONETARY AMOUNTS

                                            Questioned Costs                        Potential Additional
      Description                            (Federal Share )                            Revenues

Personnel
 (Unsupported costs)                                $3,632

Program Income
 (Fiscal Years 1994.
  1996)                                                                                  $1,450,000”




*Program income consists of entrance fee receipts of $1.2 million and annual pass revenues of $250,000 that
were collected during fiscal years 1994 through 1996 at parks financed with the Division’s license revenues.
However, at Golden Gate Canyon State Park, the property was purchased with both Division license revenues
and Parks and Outdoor Recreation funds. As such, only a proportional share of the fees at this park and other
such parks should be remitted to the Division of Wildlife.

                                                     12
                                                                                 APPENDIX 2
                                                                                   Page 1 of 3


                       DIVISION OF WILDLIFE LEASES

The Division of Wildlife leased properties purchased with license revenues to other State of
Colorado agencies and other parties. This appendix provides a description of nine leases that
the Division entered into with the State’s Division of Parks and Outdoor Recreation. These
leases were issued in 1972 for a 25year period unless noted otherwise. Also, all properties
leased to Parks and Outdoor Recreation required a management plan that was to be prepared
by the Division and agreed to by Parks and Outdoor Recreation. However, we found no
record of these management plans in the Division’s files. At seven of the nine leased
properties, visitors were charged entrance and use fees totaling $1.2 million and visitors paid
$250,000 for annual passes to all State parks; however, the Division did not receive its
proportional share of this income. The nine leases are as follows:

   - Rifle Gap State Recreation Area Lease. This property was purchased with Division
license revenues and Parks and Outdoor Recreation funds, with each party owning an
undivided half interest. In 1986, Parks and Outdoor Recreation deeded 24 of the 937 acres
of land to the Department of Corrections to build the Rifle Correctional Center. During our
review, the Division and Parks and Outdoor Recreation were dividing the land, with Parks
and Outdoor Recreation getting the portion of land on which the Correctional Center is
located.

     - Rifle Falls Lease. This property was purchased with Division license revenues.
Activities at Rifle Falls included year-round camping, picnicking, hiking, fishing,
photography, wildlife programs, and wildlife observation. The park had cooking grills and
fire pits. Rifle Falls charged visitors either a $3 entrance fee or an annual pass fee and fees
for various camping activities. In fiscal years 1994 through 1996, Parks and Outdoor
Recreation collected entrance fees of $176,953 and annual pass fees of $42,772 at the Park.

   - Golden Gate Canyon State Park Lease. This property was purchased with Division
license revenues and Parks and Outdoor Recreation funds. Activities on the property
included hunting, year-round picnicking, year-round camping, hiking, fishing, biking,
horseback riding, cross-country skiing, and snowshoeing. The Park also had nature trails,
cooking grills and fire pits, toilets, maintenance shops, a visitor and interpretative center
                                                                                           * with
offices, and places where wildlife-related materials were sold. The Park charged visitors a
$3 entrance fee or an annual pass fee, camping fees, and group fees for picnic areas and
received income for a horseback riding concession and vending machines. In fiscal years
1994 through 1996, Parks and Outdoor Recreation collected entrance fees of $364,204 and
annual pass fees of $72,005 at the Park.

   - Steamboat Lake Lease. This property was purchased with Division license revenues.
Activities at the Lake included hunting, year-round camping, boating, and lectures. The Lake

                                               13
                                                                              APPENDIX 2
                                                                                Page 2 of 3
had a Parks and Outdoor Recreation building, visitor center, maintenance shop, temporary
housing for summer employees, water and sewer facilities, boat ramps, marina concession,
and an amphitheater in which the Division made wildlife presentations. The Lake charged
visitors a $3 entrance fee or an annual pass fee and a camping fee. The State provided no
information on the amount of collections at the Lake.

   - San Luis Lake State Wildlife Area Lease. The Division obtained a right-of-way from
the State Board of Land Commissioners to use this property for operating and maintaining
a wildlife management area. The Division used license revenues to pay the Board $175,000
for the right-of-way. On July 1, 1987, the Division leased the property to Parks and Outdoor
Recreation for a period of 20 or more years. Activities at the Area included fishing, camping,
wetlands preservation, hunting, swimming, sailing, wildlife observation, hiking, and
picnicking. The Area consisted of 2,054 acres, including a 900acre lake, with hunting
permitted on about 900 acres. The Area contained a Parks and Outdoor Recreation building,
an entrance station, a boat house, a maintenance shop, a boat ramp, electrical hookups,
showers, toilets, a laundry, and a residence built in 1992. Parks and Outdoor Recreation
charged visitors a $3 entrance fee or an annual pass fee and a camping fee. In fiscal years
1994 through 1996, Parks and Outdoor Recreation collected entrance fees of $49,386 and
annual pass fees of $4,790 at the Wildlife Area.

    - Highline State Recreation Area Lease. This property was purchased with Division
license revenues and Federal aid. The lease was effective on July 1, 1987, for a period of 20
years. Activities at the Area included fishing, camping, boating, waterfowl hunting,
swimming, and wildlife observation. The Area also contained a Parks and Outdoor
Recreation entrance station and maintenance/office building. Because most of the property
consisted of a reservoir, no big game hunting was possible. Visitors were charged a $3
entrance fee or annual pass fee and a camping fee. In fiscal years 1994 through 1996, Parks
and Outdoor Recreation collected entrance fees of $166,775 and annual pass fees of $3 1,760
at the Recreation Area.

    - Jackson Lake State Recreation Area Lease. This property was purchased with
Division license revenues and Federal aid funds. Activities at the Area included high-speed
boating, water skiing, wind surfing, swimming, sailing, camping, hiking, wildlife
observation, and small game hunting. The Area consisted of a Parks and Outdoor Recreation
entrance station, a headquarters building, maintenance shops, a boat ramp, electrical
hookups, showers, toilets, a snack concession, boat rentals, and a trailer dump station.
Visitors were charged a $3 entrance fee or an annual pass fee and a camping fee. In fiscal
years 1994 through 1996, Parks and Outdoor Recreation collected entrance fees of $242,199
and annual pass fees of $54,829 at the Recreation Area.

  - Barbour Ponds Lease. This property was purchased with Division license revenues.
While fishing and camping were permitted at the Ponds, Parks and Outdoor Recreation had

                                              14
                                                                              APPENDIX 2
                                                                                Page 3 of 3
discontinued hunting at the site. Parks and Outdoor Recreation maintained an entrance
station, shelters, and toilets on the property. Visitors were charged a $3 entrance fee or an
annual pass fee and a camping fee. In fiscal years 1994 through 1996, Parks and Outdoor
Recreation had collected entrance fees of $214,442 and annual pass fees of $47,170 at the
Ponds.

   - Sawhill Ponds Lease. The property was purchased with Division license revenues, was
leased to Parks and Outdoor Recreation, and was subleased to the City of Boulder, Colorado.
The land was not suitable for hunting because of its proximity to a residential area. The
property was used as a wildlife habitat and for fishing.




                                             15
                                                                      APPENDIX 3
                     COLORADO DIVISION OF WILDLIFE
                     SCHEDULE OF PREDATOR DAMAGE
                        AND CONTROL PAYMENTS

                         Colorado        U.S.           Colorado
           Predator        State      Department      Department
Year       Damage        University of Agriculture   of Agriculture       Total

1996     $561,766                       $36,600         $26,600        $624,966

1995      474,246        $77,524         36,600          26,600         614,970

1994      410,363         71,500         36,600          26,600          545,063

1993      462,9 15        70,667         36,600          26,600          596,782

1992      33 1,699        67,949         26,600          26,600         452,848

1991      295.430         64.587         26,600          26.600         413.217

Total   $2.536.419      $352.227       $199.600        $159.600       $3,247.846




                                        16
                                                                                                APPENDIX 4
                                                                                                Page 1 of 5

                       United States Department of the Interior
                                     FISH AND WILDLIFE SERVICE
                                            Mountain-Prairie   Region

IN REPLY REFER TO:
                            *MAILING ADDRESS:                  STREET LOCATION:
 FWS/RC/FA
                            Post Office Box 25486              134 Union Blvd.
 CO Audit                   Denver Federal Center              Lakewood, Colorado 80228- 1807
                            Denver, Colorado 802250486




 Memorandum
 To:                 Assistant Inspector General for Audits, Washington D.C.
 From:               Regional Director, FWS, Region 6
 Subject:            Draft Audit Report on U.S. Fish and-wildlife S&vice Federal
                     Aid Grants to the State of Colorado for Fiscal Years 1994 and
                     1995 (Assignment No. C-GR-FWS-030-96)
 Based on consultations with the Office of the Inspector General, Office
 of the Solicitor, and Colorado Division of Wildlife staff, the following
 plan of action has been developed to address the recommendations
 contained in the Draft Audit Report referenced above.
 I have assigned Mary Gessner, Assistant Regional Director for Federal
 Aid, as the responsible Fish and Wildlife Service official to address
 the recommendations that may result from this audit.
 The attachments referenced below along with a copy of this letter will
 be delivered directly to Joe Ansnick, Office of the InspectorGeneral,
 Lakewood, Colorado.
 Questioned Costs

 Recommendation #l - "Initiate action to resolve the questioned costs of
 $112,121 (cost exceptions of $108,389, and unsupported costs of
 $3,732)."
       Response: I concur with Recommendation #l. The Colorado Division of
       Wildlife contends that their Indirect Cost Negotiation Agreement with
       the Office of Inspector General (OIG) includes purchased services
       (contract employees), therefore, the negotiated rate was
       appropriately applied to these services. The Division of Wildlife
       has compiled documentation (Attachment #l) to support their position
       and conclusion that the $108,389 are not cost exceptions, and that
       $3,732 are not unsupported costs. I request that the OIG review this
       additional information to determine the validity of the Division of
       Wildlife's response to Recommendation #l.




                                                    17
                                                              APPENDIX 4
                                                              Page 2 of 5

     l
                                                                          2

License Revenues
Leased Property

Recommendation #2 - "Require the Division of Wildlife to provide
adequate control and oversight of its leased properties."
  Response:   I concur with Recommendation #2.
  Background - The Division of Wildlife agrees (Attachment #2) that it
  is both appropriate and required under the statutes and rules and
  regulations of both the State of Colorado and the Federal Aid
  programs that adequate control and oversight of its leased properties
  be maintained by the Division of Wildlife. The Service also concurs
  with the recommendation. The Division of Wildlife and the Service
  agree that this recommendation applies to all leases, rights-of-way,
  easements, special use agreements, and other such arrangements that
  provide for non-Division of Wildlife use of property. Because of the
  various situations, lessees, and types of agreements involved,
  implementing this recommendation requires that a process be developed
  to accommodate this complexity. Also, since Recommendation #3
  applies to the same properties, the process should be consolidated to
  effectively and efficiently address both recommendations. A process
  has been developed that will address all of the properties by
  April 1, 2002. The same process will be used to ensure "new leases"
  will be under the control and oversight of the Division of Wildlife.
  The extended time period is necessary to obtain appraisals of
  property if the property is exchanged or disposed of, to complete
  legal transactions, to negotiate agreements, and to address the more
  than 300 properties involved.
     Resolution: The process and schedule outlined in Attachment #3
     will be followed to resolve the control and oversight issues
     associated with each existing lease. Initially, emphasis will be
     placed on resolving the control/oversight of the properties leased
     to the Colorado Division of Parks and Outdoor Recreation (DPOR).
     The nine leases with DPOR identified in Appendix #3 of the Audit
     Report will be addressed first followed by the remaining leases
     with DPOR. Since some time will lapse between initiation of the
     process and implementation of a final resolution (land exchange,
     renegotiated agreement or other action), a Letter of Agreement
     (Attachment #4) between the Division of Wildlife and DPOR
     providing the Division of Wildlife with oversight and adequate
     control has been signed for the interim period until the propriety
     of such leases can be determined and addressed using the process
     outlined in Attachment #3.
     The systematic review of all the leased properties as outlined in
     Attachment #3 and implementation of subsequent corrective measures
     will be completed by April 1, 2002.
Recommendation #3 - "Determine whether current uses of the leased
properties serve fish and wildlife program purposes and require the
Division of Wildlife to terminate the leases and reinstate the
properties as wildlife areas or obtain equitable compensation for land
uses that do not serve fish or wildlife purposes."


                                   18
                                                              APPENDIX 4
                                                              Page 3 of 5

                                                                         3
  Response: 1 concur with the findings, but the recommendation as
  written appears to be inconsistent with the regulations. Where the
  State is leasing lands for non-fish and wildlife program purposes, a
  diversion may exist.  When a diversion occurs according to 50 CFR
  80.4, the State must either restore the assets acquired with license
  revenues or the current market value of assets diverted must be
  returned and properly made available for use for the administration
  of the State fish and wildlife agency. As currently written,
  Recommendation #3 implies that obtaining equitable compensation for
  land uses that do not serve fish or wildlife purposes is an
  appropriate remedy for the diversion. Neither I nor the Solicitor
  could find any regulations to support this statement. I request that
  the OIG review their findings and consider rewriting this
  recommendation to be consistent with the requirements in 50 CFR 80.4.
     Resolution: The process and schedule outlined by the State in
     Attachment #3 will be followed to resolve the proper use issues
     associated with each lease (includes rights-of-way, easements,
     special use agreements, etc.). Each lease is expected to involve
     different conditions (Federal Aid, non-Federal Aid, size of leased
     area, uneconomic remnant, wildlife values, habitat types, etc.)
     and, therefore, must be handled on a case-by-case basis. As a
     result of the lease evaluation process, some of the leases may be
     terminated, renegotiated, or the property disposed of through
     exchange or sale. The Service will be involved to the extent
     necessary to ensure that final actions taken by the Division of
     Wildlife are consistent with applicable Federal Aid rules and
     regulations. If, as a result of the review outlined in Attachment
     #3, the Division of Wildlife decides to dispose of any property,
     that disposition will be conducted in accordance with 50 CFR 80.4.
     The resolution of Recommendation #3 will be completed by April 1,
     2002.

Income From Land Purchased With License Revenues

Recommendation #4 - "Determine the amount of entrance or use fees that
were collected during Fiscal Years 1991 through 1996 at license revenue-
funded properties leased to other State and Private organizations and
ensure that these revenues and all future entrance and use fees
attributable to the Divisionof Wildlife's proportional interest in the
properties are remitted to the Division of Wildlife and used for fish
and wildlife program purposes."
  Response: The Division of Wildlife will determine under which leases
  entrance fees or use fees have been charged to access property
  acquired with license revenues since 1991. By November 30, 1997, the
  Division of Wildlife will provide to the Service, a detailed analysis
  of revenues and expenditures by facility. This analysis will
  specifically identify expenditures associated with fish and wildlife
  management programs, revenue generated at each site by entrance/use
  fees, the proportional interest of the Division of Wildlife in the
  ownership of each parcel of land, the proportional ownership of the
  Division of Wildlife in the improvements made to each parcel of land,
  and other relevant factors.   Within 30 days of receipt of this
  information, I will refer this issue to the Division of Federal Aid

                                  19
                                                                 APPENDIX 4
                                                                 Page 4 of 5


                                                                           4

  in Washington, D.C. for inclusion in a National policy clarification
  process that has been initiated to address audit findings that have
  National policy implications. This process calls for National (Fish
  and Wildlife Service and State) review of specific policy
  interpretations within a 600day period. Final resolution of this
  issue is deferred until March 30, 1998, pending this National review.
The State's comments regarding Recommendation #4 are in Attachment #5.
Control and Reimibursement for Damage Caused by Predatory Animals

Recommendation #S - "Request opinions from the Office of the Solicitor
on the propriety of the State's use of license revenues for the control
of and reimbursement for damage caused by predatory or depredating
animals and related activities . . ."
  Response:  I concur with this recommendation. On July 11, 1997, I
  requested an opinion on this issue from the Office of the Solicitor,
  Rocky Mountain Region. An opinion was issued by that office on
  September 23, 1997. Following a meeting with the Division of Federal
  Aid and Division of Wildlife, the Regional Solicitor's Office issued
  an informal supplemental opinion on October 7, 1997. It is my
  opinion that this issue requires further review by the Service and
  the Office of the Solicitor in Washington, D.C. A National committee
  consisting of representatives of the Service's Division of Federal
  Aid and the States (represented by the Animal Damage and Fur
  Resources Committees of the International Association of Fish and
  Wildlife Agencies) has been formed to review and recommend changes to
  Federal Aid regulations and policies concerning animal damage
  management issues. I will refer this issue to that committee.
  Resolution of this issue is deferred until December 31, 1998, pending
  this National review.
The State's response to Recommendation #5 is in Attachment #6.      '
Recommendation #6 - "Require the State to reimburse the Division of
Wildlife for the proceeds from the sale of bear and lion hides ($2,200)
that were given to the State's Department of Agriculture."
  Response: I concur with Recommendation #6, however, the final
  resolution of this recommendation will be tied to the resolution of
  Recommendation #5. See Attachment #7 for the State's comments on
  this recommendation.

Weed Control

Recommendation #5 - "Request opinions from the Office of the Solicitor
on the propriety . . . .    . . . of the State's use of license revenues
for weed control."
  Response:  I concur with the portion of Recommendation #5 that refers
  to weed control. Based on an informal opinion received from the
  Office of the Solicitor, dated October 7, 1997, I have concluded that
  it is proper for the State to use license revenues for noxious weed
  control, unless specific weed eradication efforts would have a
  serious adverse impact on wildlife resources. The Solicitor states;

                                  20
                                                                           APPENDIX 4
                                                                           Page 5 of 5


                                                                                    5
   "Participating in a local weed control district is mandatory for all
   state agency landowners, because without their participation, the
   noxious weed control efforts in the state would not be as successful.
   Noxious weeds in almost all cases, are just as damaging to wildlife
   and the plants they depend on as they are to domestic livestock and
   crops." I concur with the Solicitor's opinion.
Administrative Controls
Excess Property

Recommendation #7 - "Require the State to account for income from the
sale of the Division of Wildlife's surplus property and to remit such
income to the Division."
  Response: The Division of Wildlife has provided additional
  documentation regarding State surplus property procedures and
  Division of Wildlife property that was declared surplus property
  during the period covered by the audit. I request that the OIG
  review this information provided in Attachment #8 to determine the
  validity of the Division of Wildlife's response.
Payroll Expenses

Recommendation #8 - "Require the Division of Wildlife to ensure that the
Federal Aid Coordinator's time sheets are prepared and submitted in a
timely manner."
   Response: I concur with Recommendation #8.
     Resolution: The Division of Wildlife has established the
     requirement that the Federal Aid Coordinator submit monthly time
     distribution reports to his supervisor effective January 1, 1997.
     These reports are due-by the third working day of the following
     month as required by State Fiscal Rule. This requirement is
     documented in Item #l of the signed annual Performance Planning
     and Appraisal Form for FY 98 (Attachment #9) for the Federal Aid
     Coordinator (official State working title for this position is
     Planning and Grants Administrator IV). The Support Services
     Branch Administrator of the Division of Wildlife will monitor
     compliance with this requirement.



              [ATTACHMENTS NOT INCLUDED BY OFFICE OF INSPECTOR GENERAL.]
Attachments
cc: Audit Liaison Officer
      FWS, Washington D.C.
    OIG, Lakewood, CO




                                        21
                                                        APPENDIX 5

            STATUS OF AUDIT REPORT RECOMMENDATIONS

Finding/Recommendation
      Reference            Status          Action Required

        land7              Unresolved.     Provide a response to the
                                           revised recommendation. If
                                           concurrence is indicated,
                                           provide a plan identifying
                                           actions to be taken,
                                           including target dates and
                                           titles of officials
                                           responsible for
                                           implementation. If
                                           nonconcurrence is
                                           indicated, provide reasons
                                           for the nonconcurrence.

      2, 3, and 4          Resolved; not   No further response to the
                           implemented.    Office of Inspector General
                                           is required. The
                                           recommendations will be
                                           referred to the Assistant
                                           Secretary for Policy,
                                           Management and Budget
                                           for tracking of
                                           implementation.

       5 and 6             Unresolved.     Reconsider the
                                           recommendations, and
                                           provide plans identifying
                                           actions to be taken,
                                           including target dates and
                                           titles of officials
                                           responsible for
                                           implementation.

                           Implemented.    No fLrther response is
                                           required.




                                    22
 v             ILLEGAL OR WASTEFUL ACTIVITIES
                   SHOULD BE REPORTED TO
             THE OFFICE OF INSPECTOR GENERAL BY:


Sending written documents to:                                Calling:


                    Within the Continental’United States

U.S. Department of the Interior                        Our 24-hour
Office of Inspector General                            Telephone HOTLINE
1849 C Street, N.W.                                    l-800-424-5081 or
Mail Stop 5341                                         (202) 208-5300
Washington, D.C. 20240


                                                       TDD for hearing impaired
                                                       (202) 208-2420 or
                                                       l-800-354-0996


                   Outside the Continental United States


                                  Caribbean Region

U.S. Department of the Interior                        (703) 2X-9221
Office of Inspector General
Eastern Division - Investigations
1550 Wilson Boulevard
Suite 410
Arlington, Virginia 22209


                                North Pacific Reaion

U.S. Department of the Interior                        (700) 550-7428 or
Office of Inspector General                            COMM 9-011-671-472-7279
North Pacific Region
238 Archbishop F.C. Flares Street
Suite 807, PDN Building
Agana, Guam 96910
                                L
                                .




Toll Free Numbers:
 l-800-424-5081            b
                           w
 TDD l-800-354-0996

FI’S/Commerciai Numbers:
  (202) 208-5300            E
 TDD (202) 208-2420        tD



1849 C Street, N.W.
Mail Stop 5341
Washington, D.C. 20240
